FILING AND MAILING CERTIFICATE
In compliance with Supreme Court Rule 29, I hereby certify that on
this 24th day of September 2019, I mailed certified mail to the Clerk of the
Court for the United States Supreme Court the required number of copies of
this Petition for Writ of Certiorari with the Appendix and further
certify that I mailed via U.S. Mail, this same date from Cincinnati, Ohio 3
copies to all parties required to be served.
The necessary filing and mailing was performed in accordance with the
instructions given me by counsel in this case.

P
m,a
Fred Sowar, Esq.
Appellate Advisors
1081 Locust Corner Rd.
Cincinnati, OH 45245
(513) 752-0584

Parties Served
Charles Wylie Scarborough
U.S. Department of Justice
(DOJ) Office of the Attorney General
950 Pennsylvania Avenue, NW
Washington, DC 20530
Stephen Printiss Murphy
Locke Lord LLP
701 8th Street, NW
Suite 700
Washington, DC 20001

